HHS/OIG, Audit - "Title IV-E Foster Care Administrative Costs Claimed by
Virginia on Behalf of Arlington County From April 2002 Through March 2004,"
(A-03-06-00562)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Title IV-E Foster Care Administrative Costs Claimed by
Virginia on Behalf of Arlington County From April 2002 Through March 2004,"
(A-03-06-00562)
November 7, 2007
Complete
Text of Report is available in PDF format (440 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine whether the State agency
claimed Title IV-E administrative costs for foster care candidates on behalf of
Arlington County partners in accordance with Federal requirements.  The State
agency did not comply with Federal requirements when it claimed Title IV-E
administrative costs totaling $1,744,137 (Federal share) for foster care
candidates on behalf of Arlington County partners.
We recommended that the State agency refund $1,327,149 ($1,744,137 less
$416,988 previously disallowed by ACF) in unallowable Title IV-E administrative
costs for foster care candidates claimed by the State agency for Arlington
County partners for the period April 2002 through March 2004.
In its comments on our draft report, the State agency generally concurred with
our findings.